<html>
<title> - LESSONS LEARNED IN THE D.C. PUBLIC SCHOOLS</title>
<body><pre>[Senate Hearing 105-537]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-537


 
               LESSONS LEARNED IN THE D.C. PUBLIC SCHOOLS

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON OVERSIGHT OF

                 GOVERNMENT MANAGEMENT, RESTRUCTURING,

                      AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 9, 1998

                               __________

      Printed for the use of the Committee on Governmental Affairs


                               <snowflake>


                        U.S. GOVERNMENT PRINTING OFFICE
 48-163 cc                     WASHINGTON : 1998
_______________________________________________________________________
           For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
SUSAN M. COLLINS, Maine              JOHN GLENN, Ohio
SAM BROWNBACK, Kansas                CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         JOSEPH I. LIEBERMAN, Connecticut
THAD COCHRAN, Mississippi            DANIEL K. AKAKA, Hawaii
DON NICKLES, Oklahoma                RICHARD J. DURBIN, Illinois
ARLEN SPECTER, Pennsylvania          ROBERT G. TORRICELLI,
BOB SMITH, New Hampshire               New Jersey
ROBERT F. BENNETT, Utah              MAX CLELAND, Georgia
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                    SAM BROWNBACK, Kansas, Chairman
ARLEN SPECTER, Pennsylvania          JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              MAX CLELAND, Georgia
                    Michael E. Rubin, Staff Director
      Laurie Rubenstein, Minority Staff Director and Chief Counsel
                      Esmeralda Amos, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Brownback............................................     1

                               WITNESSES
                         Monday, March 9, 1998

Gloria L. Jarmon, Director, Health, Education and Human Services, 
  Accounting and Financial Management, Accounting and Information 
  Management Division, General Accounting Office.................     3
David L. Cotton, Managing Partner, Cotton and Company; 
  accompanied by Ed Fritts, Senior Manager, Cotton and Company, 
  and Marvin Allmond, Managing Partner, Allmond and Company......     5
Joyce Ladner, Member, District of Columbia Financial 
  Responsibility and Management Assistance Authority.............    12
General Julius W. Becton, Jr., Superintendent, District of 
  Columbia Public Schools; accompanied by Arlene Ackerman, Chief 
  Academic Officer...............................................    16
Taalib-Din Uqdah, Parent of D.C. Public School students..........    28

                     Alphabetical List of Witnesses

Becton, General Julius W., Jr.:
    Testimony....................................................    16
    Prepared statement...........................................   120
Cotton, David L.:
    Testimony....................................................     5
    Prepared statement...........................................   104
Jarmon, Gloria L.:
    Testimony....................................................     3
    Prepared statement with an attachment........................    35
Ladner, Joyce:
    Testimony....................................................    12
    Prepared statement...........................................   109
Uqdah, Taalib-Din:
    Testimony....................................................    28

                                APPENDIX

Prepared statements of witnesses in order of appearance..........    35
Letters submitted by General Becton..............................   124
Chart submitted by General Becton................................   133
Letter from General Becton clarifying the record regarding a 
  statement during the March 9 hearing...........................   134



       LESSONS LEARNED IN THE DISTRICT OF COLUMBIA PUBLIC SCHOOLS

                              ----------                              


                         MONDAY, MARCH 9, 1998

                                       U.S. Senate,
 Oversight of Government Management, Restructuring and the 
                         District of Columbia Subcommittee,
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:14 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.
    Present: Senator Brownback.
    Senator Brownback. We will call the hearing to order.

             OPENING STATEMENT BY SENATOR BROWNBACK

    Senator Brownback. I am sorry for being a little bit late. 
I just flew in out of the snow in Kansas. We had between 6 and 
12 inches across Northeastern Kansas, and that was not so bad, 
but we had about 30-mile-an-hour winds, and there is not a 
whole lot to stop it there. There was a fair amount of snow-
drifting, and so the planes were delayed.
    I appreciate you coming to the hearing today. I appreciate 
our witnesses being here and all the other people interested in 
D.C. Public Schools. I think we have a lot to talk about, and 
for all of our panelists, I have some questions for each of you 
and I hope we can get some good illumination for everybody.
    There are a number of educational reforms that could play a 
critical role in achieving results and success, in the D.C. 
Public School system. One important reform would be the D.C. 
scholarship bill. This bill would provide scholarships to low-
income children in the District to attend private schools. It 
passed the Senate, and it is currently pending in the House.
    In addition, I, along with Senator Lieberman, sponsored 
legislation under the fiscal year 1998 D.C. appropriations bill 
requiring the D.C. Public Schools to give preference to charter 
schools in selling excess Public School property. I am happy 
that D.C. Public Schools has been working with the charter 
school community to implement these changes. The District can 
now look forward to having more charter schools in the upcoming 
school year.
    At today's hearing, though, we will focus on lessons 
learned in the D.C. Public Schools during this past year. We 
have held several hearings in this Committee room on the D.C. 
Public Schools. It has been an issue that has been very clear 
in importance to me and very dear to me as well, along with 
Senator Lieberman, the Ranking Democrat on the Subcommittee.
    I think you have to look at the D.C. Public Schools as 
being one of the critical components for the District of 
Columbia. We are going to look at some of the lessons learned 
over the past year of the D.C. school system's Public Schools.
    I have to say, I am troubled certainly by some of the 
academic results that we have seen. I think one of the first 
lessons we have to say is that the academic quality of the 
schools is in dire need of improvement. We have a couple of 
charts, and I know these figures are nothing new to the people 
in the District of Columbia Public Schools that have looked at 
the Stanford-9 test results. I am pleased that the District is 
doing the Stanford-9 test, so we will have an objective set of 
tests and factors to look at, but, according to the test 
results, which were taken at the end of the last school year, 
100 percent of the 10th graders in two high schools scored 
below basics in math. Not one 10th-grade student scored at the 
basic level in math in two of the high schools that we have in 
the District of Columbia, and that is simply not good enough.
    What we have up here, the two charts, are 10th graders in 
math, and this is not good enough either. Sixty-one percent of 
the Nation's 10th graders are below the basic levels, 61 
percent in the Nation. In the Nation's Capital, 89 percent of 
the 10th graders are below the basic levels of math. This is 
simply not a tolerable situation. We have got to get this 
turned around. We have to do it in short order. We are failing 
our students, and our students are not getting the necessary 
education that they need to succeed in a very competitive 
world.
    As for reading, which we have on the other chart, about 26 
percent of the Nation's 10th graders are classified as below 
basic, and 53 percent of the 10th graders in the District's 
Public Schools are performing below basic. Again, this is just 
not acceptable.
    I realize that our leadership team has not been in place 
for that long of a period of time, but we have to get these 
scores improving on a rapid basis. It has got to get better.
    When a child reaches the 10th grade without these basic 
skills, time is running out for that child to gain those skills 
back before they graduate. The District's Public Schools must 
not only begin earlier to teach these basic skills, they must 
maintain these standards so that the skills are not lost by the 
10th grade.
    I am concerned on a second set of lessons, and that is on 
the consistency of school safety and disciplinary policy in the 
District's Public Schools. We have had a number of security 
violations that have occurred, a number of them involving 
weapons that have been confiscated. These have been reported 
since September of 1997. The information that I have is that 
more than 1,600 security violations have occurred and at least 
157 weapons, such as guns, knives, machetes, etc., have been 
confiscated since September 1997.
    The discipline policy for these serious offenses remains, 
in my opinion, inconsistent and unclear among the District's 
Public Schools. This sends the wrong signal to those 
jeopardizing the safety of the D.C. Public Schools.
    Having a successful academic plan and a solid roof on these 
school buildings means nothing if the students and teachers 
fear for their lives.
    Then we want to look, also, at the school's roof repairs 
which has been covered quite extensively in the press, and we 
will have some people here to testify about that.
    I am pleased that we have General Becton here to testify 
and to answer some questions for this Subcommittee. He had been 
tasked with a very difficult job, and he has had just a little 
over a year in leadership in that position. It is an 
extraordinarily difficult task, and I have a great deal of 
admiration for the General's abilities and character.
    He did state in September of 1997 the following, ``I 
believe that our success or failure will be judged on whether 
or not we have achieved fundamental improvements in three core 
areas. One is in academics, two is in school facilities, and 
three in personnel and financial management systems.'' I think 
we need to review the progress that has taken place since 
September of 1997 on those three scores and what is proposed 
for the near future so that we can get all of those areas 
improving.
    This is an important hearing. It is a difficult subject for 
everybody that is in leadership and everybody that is working 
to try to improve the D.C. Public Schools. They simply are not 
performing up to standards, and I want to be convinced after 
this hearing that we have a plan and we are actually improving 
to where these test scores change, to where security of the 
students in the systems change and improves, and the facilities 
improve in the near term. Where are we on getting those three 
core issues moving forward? We simply have to get them better. 
If we are not getting this done, then we need to take steps to 
improve that.
    The first panel that we have will be Gloria L. Jarmon. She 
is the Director of Health, Education and Human Services, 
Accounting and Financial Management, Accounting and Information 
Management Division of the General Accounting Office.
    We have David L. Cotton, the Managing Partner of Cotton and 
Company. They have done some extensive reviews of some of the 
financial management and some of the issues that have 
previously been raised publicly concerning the D.C. Public 
Schools.
    I look forward to your testimony, and I will have some 
questions regarding the findings that you have brought forward.
    Ms. Jarmon, would you care to go first?
    Ms. Jarmon. Yes.
    Senator Brownback. Thank you for joining us, and the floor 
is yours. We can take your full statement in the record and you 
can summarize, or you can present your full statement.

 TESTIMONY OF GLORIA L. JARMON,\1\ DIRECTOR, HEALTH, EDUCATION 
   AND HUMAN SERVICES, ACCOUNTING AND FINANCIAL MANAGEMENT, 
    ACCOUNTING AND INFORMATION MANAGEMENT DIVISION, GENERAL 
                       ACCOUNTING OFFICE

    Ms. Jarmon. Mr. Chairman, I would like to summarize my 
statement and present the entire statement for the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Jarmon appears in the Appendix on 
page 35.
---------------------------------------------------------------------------
    I am pleased to be here today to discuss the results of our 
review of the District of Columbia Public Schools' efforts to 
repair school roofs during the summer of 1997.
    Consistent with your request, we focused on three issues: 
First of all, determining when funds were made available to pay 
for school roofs; second, the cost of the school roofs, 
including the cost per square foot; and, third, looking at 
additional roofs to be repaired in 1998 and beyond.
    Our primary message today related to the availability of 
funds is that sufficient funding was available to begin work 
when schools were closed for the summer on June 20, 1997. Bond 
proceeds was $11.5 million. It became available in October of 
1996, and were being used to fund the GSA-managed roof repair 
projects.
    Additional funds later became available for the DCPS-
managed projects, with $18 million becoming available in March 
of 1997, and an additional $20 million in June of 1997. 
Therefore, when schools closed on June 20, 1997, at least $38 
million was available for DCPS-managed roof repairs.
    As you know, much of this work did not start until the 
third week of July. DCPS was not prepared to begin this work 
earlier because it had not completed sufficient initial work 
such as determining the scope of work which forms the basis for 
seeking bids. In addition, there had been an almost complete 
turnover in technical support staff within DCPS, and there were 
problems in securing bids.
    DCPS officials also told us that they had planned to do 
this work through the end of October, but because of the court 
order that work not be done while classes were in session, they 
had to do the work in a compressed time frame.
    I will now talk briefly about the costs of repairs. Our 
work shows that DCPS spent about $37 million for these repairs 
during fiscal year 1997. A significant, but not determinable, 
amount of these costs were attributable to factors other than 
what would be strictly interpreted as roof replacement or 
repair work. Among these were structural integrity, fire 
damage, general deterioration from neglected maintenance, and 
warranty stipulations.
    Considering the cost of all of this work, we found that the 
average per-square-foot cost of the roof repairs during fiscal 
year 1997 was $20, with the GSA-managed roof repairs being 
about $13 per square foot, and the DCPS-managed roof repairs 
being about $22 per square foot.
    Some of the reasons for the differences seem to be that GSA 
uses existing contracts to do their work. So they did not have 
to go out for bids when the market was already saturated with 
roof work. Second, GSA's projects were done over a longer time 
frame, thus requiring less overtime, and third, GSA's contracts 
covered only flat work roof. Whereas, DCPS contracts covered 
multiple roof areas.
    Last, I will address the future roof work plan. For fiscal 
year 1998, DCPS plans to spend about $35 million for 40 school 
roof projects. DCPS has about $41.8 million available for these 
projects, most of that coming from Sallie Mae funds. To date, 
five schools have been completed, and the scopes of work on the 
remaining 35 are expected to be completed in May 1998. Twenty-
six of these 35 scope of works were completed by the end of 
February. The other nine, we have been told, will be completed 
sometime in May.
    We would like to stress here that it is very important that 
these scopes of work are completed, solicitations distributed, 
and the contracts awarded as soon as possible to ensure that 
prior year problems with the compressed time frame do not 
reoccur.
    We also know that an additional $63 million is included in 
a proposed DCPS plan covering the years--fiscal year 1999 
through the year 2004. This is not a detailed plan. We were 
told that the proceeds from the sale of the closed schools are 
expected to help cover these out-years of 1999 through 2004.
    Mr. Chairman, this concludes my statement. I will be happy 
to answer any questions from you.
    Senator Brownback. We will have some questions for you 
later.
    Mr. Cotton, we are pleased to have your statement for the 
Subcommittee.

 TESTIMONY OF DAVID L. COTTON,\1\ MANAGING PARTNER, COTTON AND 
 COMPANY; ACCOMPANIED BY ED FRITTS, SENIOR MANAGER, COTTON AND 
  COMPANY, AND MARVIN ALLMOND, MANAGING PARTNER, ALLMOND AND 
                            COMPANY

    Mr. Cotton. Thank you, sir.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cotton appears in the Appendix on 
page 104.
---------------------------------------------------------------------------
    Chairman Brownback, I am pleased to be here today to 
discuss the results of our audit of the DCPS procurement 
process.
    With me today are Ed Fritts, a senior manager with Cotton 
and Company; and Marvin Allmond, managing partner of Allmond 
and Company. Mr. Allmond and his staff assisted Mr. Fritts and 
me in our audit.
    I know that you and your staff have already reviewed our 
report. I would just like to emphasize two points related to 
the audit.
    First is the issue of whether DCPS followed proper 
procurement procedures. The second is regarding the refusal by 
DCPS personnel to affirm in writing certain representations 
about the roof repair projects.
    Since the audit was completed, DCPS official have asserted 
that they complied with the D.C. Board of Education procurement 
rules which allow for emergency contracting.
    There are two problems with that assertion. First, the DCPS 
people who were actually performing the procurements told us 
during our audit that they did not comply with any procurement 
policies or procedures.
    The DCPS Chief of Contract Administration told us in 
writing that, ``There are no procurement procedures which DCPS 
had to follow in awarding capital contracts. The authority 
resolution requires only that the CEO enter into contracts 
which he deems appropriate and in the best interest of the 
school system.''
    The DCPS Chief of Capital Projects told us in writing that, 
``All of the work done by DCPS in fiscal year 1997 was done 
under emergency conditions as declared by the Control Board. We 
were thereby exempted from procurement policies and 
procedures.''
    The second problem with the assertion that these procedures 
were followed is that even if DCPS officials thought they were 
following these procedures, what occurred failed to conform to 
those procedures. For example, our audit found that 
documentation requirements were ignored. Segregation of duties 
requirements were bypassed or circumvented. Project managers 
rather than procurement officials decided what contractors to 
invite to submit bids, received and opened bids, and made 
contract award decisions. Contracts and contract modifications 
were executed without first certifying that funds were 
available. Contract work was allowed to commence without 
evidence that required bonds were obtained. Contract compliance 
requirements were not monitored. Millions of dollars of change 
orders were approved without justification or written findings 
and determinations.
    Nothing in these procedures, emergency or otherwise, permit 
such practices. These were the conditions that we cited in our 
report as being conducive to fraud.
    I want to address the issue of management representations. 
In a hearing on January 23, Delegate Eleanor Holmes Norton 
asked General Becton and his staff why they refused to sign the 
management representation letters we asked them to sign as a 
routine part of our audit. They did not answer that question. 
Instead, they stated that it was unfair and inappropriate for 
us to have asked them to sign these letters.
    It was neither unfair nor inappropriate, although 
requesting written management representations is not a 
mandatory procedure in performance audits, it has been a 
suggested or recommended procedure for nearly 20 years.
    The current version of GAO's Government Auditing Standards 
suggests that this procedure be considered. The 1988 version 
and the 1991 version recommended that management 
representations be obtained.
    The focus should not be on whether or not our request for 
management representations was appropriate. The focus should be 
on why DCPS officials refused to provide these representations.
    We asked six management officials to affirm certain key 
assertions made to us explicitly or implicitly during the 
audit. Four officials did not respond. Two officials gave us 
some, but not all of the representations, 16 days after we 
issued our report. Our request was simple and straightforward. 
We asked them to affirm to the best of their knowledge and 
belief that, for example, they knew of no material recorded 
transactions; that they had made available to us all relevant 
information; that they had informed us of all evidence of error 
or fraud of which they were awarded; that they knew of no 
violations of law that had occurred in connection with the 
contracts; that they had provided us with all relevant 
information regarding the conviction of two DCPS procurement 
officials for accepting bribes and illegal gratuities, and that 
these two officials had nothing to do with the procurement 
process, and so forth. These were legitimate questions within 
the scope of our audit. You deserve answers to these questions.
    Mr. Chairman, that completes my prepared statement. I will 
be happy to respond to any questions that you have.
    Senator Brownback. Thank you very much, Mr. Cotton, for 
your statement.
    Mr. Cotton, let me just kind of cut to the chase of this. 
You stated that there was an atmosphere that fraud could occur 
in, and you said some questions were not answered. Do you have 
any evidence of fraud actually having occurred in this roof 
repair project that went forward?
    Mr. Cotton. We have what I consider circumstantial evidence 
that fraud could have occurred, and I think further 
investigations may reveal that bribes, gratuities, or kickbacks 
could have taken place, perhaps did take place. I think further 
work is needed to determine that.
    Senator Brownback. You will be proposing to this 
Subcommittee an outline of further investigation to determine 
whether or not fraud occurred or whether kickbacks or bribes 
occurred?
    Mr. Cotton. We provided an outline of what we think needs 
to be looked into to the Control Board. My understanding is 
that the Control Board has asked the D.C. Inspector General to 
follow up and pursue those issues.
    Senator Brownback. Do you feel comfortable discussing with 
this Subcommittee today the circumstances that you believe show 
circumstantial evidence of fraud having occurred?
    Mr. Cotton. The general points that I outlined in my 
statement, I think, is as far as I would like to go. We 
provided the Control Board with some more specifics. If they 
are under investigation, I would be reluctant to describe them 
in further detail.
    Senator Brownback. You note that the cost was roughly 
double, for the repair work on the school roofs, what was 
stated in front of the Subcommittee. I believe it was about a 
year ago, maybe not quite a year ago. I thought they said it 
would be about $11, and it was, instead, around $20 per square 
foot?
    Was that the figure, Ms. Jarmon?
    Ms. Jarmon. Yes. It was about $20 per square foot, and 
early on in our work, we did ask for the support for the $11 
per square foot. We were told that the schedules had been 
revised and the schedules were not available. So, based on our 
work, like I said in my opening statement, including all of the 
additional costs, it was about $20 per square foot.
    Senator Brownback. Let's take into consideration all the 
factors that were in place. There was a court order. The school 
year was pressing. We ended up having to delay the school year 
because of the lack of ability to repair the roofs.
    There was a lot of emergency-type situations present. Did 
you consider all of that in determining whether or not those 
figures going from $11 to the $20-plus were appropriate?
    Ms. Jarmon. We took those factors into account, and that is 
why we mentioned these factors within the report.
    We really did not look into whether they were appropriate. 
We were more addressing the question of what the overall costs 
were.
    Senator Brownback. Mr. Cotton, how about you on that? We 
have a situation that, obviously, there was a lot of pressure 
at that particular point to get these roofs repaired and to get 
it done now. Should that have driven the cost up double of what 
it was told to us?
    Mr. Cotton. Well, Senator, I think there is no question 
that General Williams did an incredible job accomplishing what 
he accomplished, and he started from no staff, and the issue of 
whether or not he could have gotten statements of work prepared 
sooner, whether he could have gotten procurements in place in 
April and May, and had the work ready to be started in June, I 
guess, is a question I think Gloria's report tried to answer.
    We talked with the engineering firm that prepared most of 
the estimates. They told us that their estimates were already 
high because they had taken into account the fact that the work 
was compressed; that D.C. was not a favorite place for 
contractors to work and so forth.
    Our results showed that if you take those factors into 
account, the actual costs as of the time we completed our work 
was about 11 percent above those already-high estimates.
    I am not sure whether anyone will ever know whether this 
work could have been done at $12 or $15 a square foot. My focus 
was on the process, and I understand that DCPS had a legitimate 
position that they needed to streamline the process. My concern 
was that I think they streamlined it too much.
    Senator Brownback. Did you draw this to their attention 
early on, or was this ever drawn to the attention of the DCPS 
about this, excess of a streamlined process that would lend 
itself to potential for fraud or abuse?
    Mr. Cotton. Well, we began our audit work in the last week 
of October 1997 when most of the procurements were finished, 
but we kept DCPS officials informed of our findings as they 
were developed.
    Senator Brownback. Ms. Jarmon, in looking at your analysis 
on the roof repair procurement, the cost of repair and the 
availability of funds for repair, what are the main flaws that 
should be addressed immediately in proceeding forward with any 
other repairs to D.C. Public Schools?
    Ms. Jarmon. Well, we would suggest that it is going to be 
very important that there is a detailed plan going forward that 
would highlight what needs to be done, what schools need to be 
done, the priorities, and that there be controls in place to 
make sure it is followed, and when changes are made to it, 
those changes be documented, and also to ensure that the 
warranties are honored that warranties have been received based 
on the work that was done, and to ensure that the neglected 
maintenance, deferred maintenance that we referred to in our 
report does not reoccur, and that these contracts be awarded as 
soon as possible. And if they cannot be awarded very soon, that 
consideration be given to utilizing GSA more. That was an 
option also in 1997. Those are the primary issues that we would 
suggest.
    Senator Brownback. Good.
    You noted in one place in your study that you did not have 
sufficient data to make certain determinations. What kind of 
bookkeeping does the D.C. Public School system have, and do you 
have any suggestions for them to come up with the type of data 
that you would need to make appropriate reviews?
    Ms. Jarmon. Our report talks about at least a couple of 
examples where documentation was not available to support what 
we were trying to do. One related to fund availability, where 
there were some differences as far as--our report talks about 
when funds were available to the Control Board. We were told 
that D.C. Public Schools were not aware of those funds until, 
in some cases, several months later, and we received no 
documentation to show us when D.C. Public Schools received the 
funds.
    We are aware now, based on information we received from the 
District CFO's office, that they are in the process of changing 
those procedures, so that there will be some written memos or 
internal memos to notify the agencies when funds are received. 
We would support that type of documentation.
    In addition, in our report when we were talking about the 
cost of the school roofs that were internally repaired for the 
District, there were seven school roofs internally repaired. We 
noted that we could not get cost data on those seven school 
roofs, and we would recommend that there be a good cost system 
to support that data.
    I know that David Cotton's report talks about many other 
deficiencies with the record-keeping. So he may be able to 
better address that.
    Senator Brownback. Mr. Cotton, would you care to follow up 
on that question with some specifics of what additional data is 
necessary to properly track these projects?
    Mr. Cotton. Well, our major concern about record-keeping 
had to do with the status of the contract files, and we 
understood that some of the projects were just being completed. 
Some of them had not been completed yet. The files were 
understandably incomplete.
    Our concern was that many of the documents that should have 
been in the files, whether the projects were complete or not, 
were not in the files.
    The file organization was not consistent. Files were 
disorganized. Every file was a little bit different. I 
understand DCPS has taken steps to correct that.
    The paperwork issue is of less concern to me than the other 
control issues, such as segregating procurement duties from 
project management duties, requiring supervisory approvals and 
sign-offs of key procurement decisions and so forth, and I 
think that is the area that I am most concerned about seeing 
corrected.
    Senator Brownback. Have you outlined those in detail in 
your report, where you think we need to have different 
processes in place, different approvals in place to make sure 
that a situation like this does not come up in the future?
    Mr. Cotton. Well, I think you do. It had been my 
understanding that the procurement responsibility was moved 
from DCPS to some other D.C. Government organization, but I 
found out recently that that may not be the case.
    I think my recommendation would be that until a set of 
established and solidly controlled procurement procedures are 
put in place and formally adopted by either the Control Board 
or DCPS that we need to go back to what the law said, and the 
law said that Federal procurement rules need to be followed. If 
these procurements are done in accordance with the Federal 
Acquisition Regulation, I think you have the controls you need.
    If you decide to allow DCPS or some other organization to 
adopt its own policies, then I think you need to focus on the 
issue of segregation of duties, documentation of reviews and 
approvals, and another key requirement should be maximum 
competition for these procurements.
    Senator Brownback. Which there was not in this particular 
case, competition?
    Mr. Cotton. No, sir, there was not.
    Senator Brownback. Was there any competition for the 
procurement in these cases?
    Mr. Cotton. The Chief of Contract Administration told us 
that he could not recall how the initial procurements were 
advertised. He said he thought that they were advertised in the 
Washington Times because the account with the Washington Post 
was delinquent.
    The follow-on, procurements late in the process, the final 
20 procurements, the degree of competition was limited to a 
project manager deciding which three or four contractors to 
invite to bid on the project, and those three or four 
contractors sometimes would bid, sometimes would not, and they 
would select from amongst the bids that they got.
    Senator Brownback. How many projects did you say, 7 or 17?
    Mr. Cotton. Twenty.
    Senator Brownback. The last 20 projects? The project 
manager would invite three or four that he thought were the 
appropriate ones to bid on this project?
    Mr. Cotton. Yes, sir.
    Senator Brownback. Then some of those would submit bids and 
some would not?
    Mr. Cotton. They were given sometimes less than 24 hours to 
prepare a bid. Some of the potential bidders said they simply 
could not prepare a bid in that period of time.
    Senator Brownback. Then the project manager had the 
authority to grant the project at that point in time?
    Mr. Cotton. Bids were submitted to the project managers for 
these final 20. The project manager would then send the 
paperwork over to the procurement official for signing of the 
contract, but the selection was essentially made by the project 
manager.
    Senator Brownback. So you had one person with limited 
competition, possibly no competition, awarding these last 20 
projects?
    Mr. Cotton. That is correct.
    Senator Brownback. Is that the basis of your concern of 
circumstantial evidence of fraud, or is it something else that 
is there?
    Mr. Cotton. Well, there are five attributes to every fraud, 
a perpetrator, a victim, intent, motive, and opportunity. The 
only one of those five attributes that an organization can 
control is the last one, opportunity. So, by not segregating 
duties, that created the opportunity for irregularities, fraud 
to have occurred, we had some additional concerns about some 
specific procurements that we have communicated to the Control 
Board that are a little bit more specific than that, but that 
is a major concern.
    Senator Brownback. In those last 20 cases, do you know 
whether some of those bids that were let with only one 
contractor bidding on the project?
    Mr. Cotton. There might have been one or two with only one 
bid.
    Senator Brownback. Were there several with only two bids?
    Mr. Fritts. I think generally that----
    Senator Brownback. I am sorry. Would the gentleman please 
identify himself, so we could have it for the record here?
    Mr. Fritts. Thank you, Mr. Chairman. My name is Ed Fritts 
with Cotton and Company.
    I recall that for those last 20 projects, a standard number 
of bids received would be two or three. There were one or two--
I do not remember the specifics--but there were one or two in 
which there was only one bidder or at least the contract file 
did not document if there were more than one bidder, but, 
typically, two or three bids would have been received, and 
those bids were addressed directly to the project manager, not 
to the procurement officer.
    Senator Brownback. And sometimes these bids were pulled 
together within 24 hours?
    Mr. Fritts. Yes, sir. Well, from 1 to 3 days, something 
like that, but, yes, a very short turnaround time, much shorter 
than you would normally expect in a sound procurement process.
    Senator Brownback. Were you able to track any of the 
advertising for these bids?
    Mr. Fritts. The only advertising, as we were told, was the 
project manager or at least somebody from the Capital Projects 
office, but the contract file suggested the project manager 
called the prospective bidders to come out to a school, to walk 
through the school, and then to subsequently make their 
independent bids.
    Senator Brownback. Mr. Cotton, I want to go back through 
and get your statement clearly because these are strong 
statements that you are making.
    Mr. Cotton. Yes, sir.
    Senator Brownback. You are saying that the potential for 
fraud clearly existed.
    Mr. Cotton. Yes.
    Senator Brownback. That there is circumstantial evidence of 
fraud having occurred in these school repairs?
    Mr. Cotton. Yes, sir. That is correct.
    Senator Brownback. And that from that, you think it would 
be wise for further investigation? Obviously, if there is that, 
I mean, this Subcommittee and many others are going to be 
asking for further investigation of this to occur.
    Mr. Cotton. Yes, sir.
    Senator Brownback. Is there anything further you would feel 
confident in presenting in front of this Subcommittee of the 
circumstantial evidence concerning the fraud?
    Mr. Cotton. I would be uncomfortable getting into more 
specifics.
    Senator Brownback. All right. We will be delving into that 
at a later time.
    Ms. Jarmon, did you have anything further that you would 
like to add to the Subcommittee and to your report?
    Ms. Jarmon. No, I do not, Mr. Chairman.
    Senator Brownback. All right. Well, thank you, and, Mr. 
Cotton, I appreciate both of your testimonies. We will be 
following up on this because they are serious findings and 
statements. Thank you very much for your help.
    Our next panel will be Dr. Joyce Ladner, Member of the 
District of Columbia Financial Responsibility and Management 
Assistance Authority, and General Julius Becton, Superintendent 
of the District of Columbia Public Schools.
    I want to thank the two panelists for joining us today, and 
I think both of you were present for the last testimonies. They 
are serious allegations that are being put forward.
    It is a serious topic. I do not want to lay it out either 
as any sort of--out here trying to hunt to say ``gotcha'' on 
something. I do not like these test scores at all. I do not 
think anybody in this room likes or agrees with these test 
scores. I do not like accusations and people saying that there 
was fraud that occurred, that the circumstances for fraud 
occurred, and I am sure neither of you do either, but I will 
look forward to hearing some clear testimony as to what has 
happened, what systems have been put in place to correct this, 
and what we can look forward to by correcting these problems in 
the future. I will have some tough questions for you.
    I appreciate the difficulty of the job that you are in, but 
these are just some terrible accusations and bad test results 
that we have. We have to get at the root of this.
    Dr. Ladner, you can present your full testimony or 
summarize, whichever you care to do.

  TESTIMONY OF JOYCE LADNER,\1\ MEMBER, DISTRICT OF COLUMBIA 
  FINANCIAL RESPONSIBILITY AND MANAGEMENT ASSISTANCE AUTHORITY

    Ms. Ladner. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify on the progress made and lessons learned 
in our efforts to reform the District's Public Schools.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Ladner appears in the Appendix on 
page 109.
---------------------------------------------------------------------------
    When the Authority issued its report in November 1996 
entitled ``Children in Crisis,'' the report on the failure of 
the D.C. Public Schools, we concluded that the deplorable 
record of the District's schools and every important 
educational and management area had left the system in crisis, 
and, virtually, every area, every grade level, the system 
failed to provide the children--the schools with the quality of 
education and a safe environment in which to learn.
    In response to that report, we took immediate action on 
November 15, 1996, to fundamentally improve the schools through 
a resolution and order. We replaced the Superintendent and 
reduced the powers of the elected Board of Education. In their 
place, we appointed, as you know, retired Army Lieutenant 
General Julius W. Becton, and we established an emergency 
transitional board of trustees.
    The progress made to date has laid the foundation for 
further reform and demonstrable success in the outcomes of 
children's education. I think that at best, what I can say is 
that a large number of things have occurred to put in place the 
foundation, the infrastructure, some of the personnel that can 
carry this task forth so that those test scores that you have 
placed here before us do begin to change.
    I am a realist, and in being a realist, I recognize that 
the problems in the school system did not come about overnight. 
The physical structures have been deteriorating for a period of 
roughly 50 years. The average age of our schools is in excess 
of 50 years.
    The physical problems and the educational ones cannot be 
fixed overnight. Yet, the important thing--and I emphasize that 
here--is that they are being fixed. For the first time, there 
now exists comprehensive plans both on education and facilities 
that we did not have before.
    Despite the hard work that has gone into this by all 
parties involved, including the parents, teachers, 
administrators, and volunteers, much remains to be done. In 
researching the approach taken by other educational reform 
efforts, one of the most essential ingredients was the 
establishment of the reform-minded team that committed to 
change.
    In places such as Chicago that I visited prior to the 
Authority making the change in the governance structure, they 
successfully recruited a top management team and eliminated 
drastically the middle-level management tier. We have strongly 
encouraged General Becton to employ the same approach. We are 
very pleased, therefore, that Dr. Arlene Ackerman, who has been 
appointed Deputy Superintendent and Chief of Academic Office as 
a result of the national recruitment campaign, has joined the 
schools, and in the coming months, we know that General Becton 
will continue to assemble a team that can bring the Public 
Schools up to the level of achievement that we want them.
    With respect to academics, the Chief Academic Officer is 
instituting a plan that will leverage accountability for 
educational change throughout the school system. All of the 
actions in the future, present and going forth, all of the 
procedures and processes are being examined for their impact 
upon educational attainment.
    Therefore, the schools have limited the appointment of 
principals to 1 year--that is the first major change that was 
made--and removed the selection of principals from the 
previously politicized process. Fifty percent of the 
principal's evaluation now will be based on students' academic 
performance. So we are tying performance of students to the 
effectiveness of principals.
    The schools are also moving to make teacher evaluations 
performance-driven, and that will be instituted next fall. 
Principals and teachers are receiving training and the 
expectations supporting performance-based management.
    We are also making changes in academic standards. On her 
arrival, Ms. Ackerman implemented the nationally recognized 
Stanford-9 test, and they are being administered on a biannual 
basis.
    Mr. Chairman, I would hazard to guess that because all of 
our efforts are being placed in an intensive way to campaign to 
raise these scores; that when that test is administered again 
in the spring, we may well see some--the next time it is 
administered, we may well begin to see some increase in those 
scores. I say that because the principals have organized 
inasmuch as 50 percent of their evaluation is now tied to the 
way in which children's test scores are turning out. They are 
under the gun.
    The teachers know that come September, their evaluations 
will also be very, very heavily tied to the performance of 
students. They also know that we are getting rid of social 
promotion, come this summer, and by putting in place a safety 
net for those students who, as you have demonstrated here on 
these charts, are not functioning at the adequate level at 
which they should be.
    We expect somewhere between 15,000 and 20,000 students to 
go to summer school. It will be a tough pill to swallow in the 
beginning, but we also know that none of us could justify 
continuing to have students passed on from one grade to the 
next if they have not mastered the basic skills that they 
should have mastered.
    We also have an educational strategic plan that will guide 
the development of all the administrative priorities that are 
set. For a long time, the District's schools have not tied the 
programs to the finances available, and for the first time, we 
will have a road map that will be tied to the ability to fund 
these programs.
    In terms of administrative and financial management 
improvements, we the Authority are assisting the schools in 
addressing longstanding problems in central personnel and asset 
management and technology and procurement functions.
    I want to clarify something that was said by the last 
panel, I believe by Mr. Cotton. The procurement and information 
technology systems are being centralized, and procurement will 
be placed under--in the process of being placed under the Chief 
Procurement Officer for the City, Richard Fite, and we will be 
working with the schools in the months to come to try to make 
sure that the centralized system will address their specific 
needs, but there is no question that the Authority has made the 
decision to place procurement under the aegis of the chief 
procurement officer.
    Information technology is the same. We will work with the 
schools on asset management and on personnel because many of 
the other agencies in the City have had those two functions as 
well centralized.
    We have made some progress. The size of the central 
administration has been reduced from 15 percent of the work 
force in fiscal year 1997 to 11 percent in 1998, and we are 
also--have developed in conjunction with the schools--the 
Authority has implemented, developed a monitoring plan that 
measures management and programmatic changes. Monitoring 
program measures, the progress in the schools in terms of 
results are outcomes that the chief executive officer achieves, 
and it will help to support the future changes needed to 
improve these results in the future.
    Much has been said about the infrastructure improvements. I 
would like to say here that while we understand that we were 
required to make a lot of changes in the physical facilities of 
the schools in a very short period of time, that we were also 
under the gun of the judge who ordered many of the changes that 
resulted in change orders, I should clarify here.
    We also know that ultimately all of us bear accountability 
for what did or did not occur. The Authority met with Mr. 
Cotton in a closed session, and we have forwarded to the IG our 
concerns, and they are investigating. We did that immediately 
after talking with him.
    I do not want to say more than that except to say that I am 
a little surprised at how specific Mr. Cotton was today 
relative to our conversation we had with him a month or two 
ago.
    The Public Schools are now marketing surplus facilities, 
including the 11 schools we closed last fall. All the monies 
that are received will be placed in--plowed back into the 
revitalization of the physical plants of the schools.
    One of the remaining challenges facing the schools, Mr. 
Chairman, is special education. It is a crisis in most major 
cities around the country, and for the District, it is no 
different.
    We have nearly 7,700 students in special ed, and the 
numbers are growing precipitously. This growth is having 
tremendous implications for the future cost of education in the 
City. Fiscal year 1997 we spent $93.8 million from all sources 
on special ed. In fiscal year 1998, we estimate we will spend 
$102 million.
    Under the Mills decree, the court order, the D.C. Schools 
are required to assess and place special ed students within 50 
days of referral. I might say to you, Mr. Chairman, that I know 
that you know a great deal about education in conversation and 
the hearing we had earlier this year. This 50-day referral 
period is the shortest time period for assessment and placement 
of any school district in the Nation, according to our 
research. Most school districts have about 120 days to do the 
assessment.
    Consequently, so many times, what happens is that because 
we cannot do this turnaround of assessing a child's proper 
placement in the 50 days, what happens is that on procedural 
grounds, we lose the cases to families that are represented by 
counsel, and the school system ends up having to pay the 
tuition, the exorbitant cost for the child's education, and you 
know that this occurs irrespective of parents' income and so 
on. We need relief in this area from the City Council.
    Finally, I would just speak to school funding. 
Unfortunately, as you well know, the District of Columbia is 
not represented by a State. Therefore, we have to assume City 
functions, State functions as well, and every major city around 
the country receives a significant part of its budget for its 
school system from the parent State, for building, 
construction, etc., as well as curriculum development and so 
on.
    We do not have that. So I would simply say to you, Mr. 
Chairman, that in the months ahead, it would be very, very 
important for us to be able to continue the discussions along 
the lines of how do we realign a school system that does not 
have the traditional basis of support that other cities have 
and still bring it up to standards and to the level at which we 
know the children have to come.
    Thank you.
    Senator Brownback. Good. I look forward to having some 
questions and discussion with you, if I can.
    Ms. Ladner. Sure.
    Senator Brownback. General Becton, thank you for joining us 
on the Subcommittee. You have had a tough task placed on you, 
and a short time frame in which to do it, but the kids deserve 
a lot. I know you are trying to deliver that. I look forward to 
your testimony.

TESTIMONY OF GENERAL JULIUS W. BECTON, JR.,\1\ SUPERINTENDENT, 
  DISTRICT OF COLUMBIA PUBLIC SCHOOLS; ACCOMPANIED BY ARLENE 
                ACKERMAN, CHIEF ACADEMIC OFFICER

    General Becton. Thank you, Senator Brownback. You have my 
prepared statement. I will just make a few key remarks from 
that statement.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Becton appears in the 
Appendix on page 120.
---------------------------------------------------------------------------
    We thank you for providing us the opportunity to update you 
on the progress of our efforts to reform the District of 
Columbia Public Schools.
    The title of this hearing, ``Lessons Learned,'' is 
appropriate because this has certainly been a learning process 
for all of us. I am happy to share some of those lessons with 
you today.
    I have with me, by the way, in addition to Ms. Ackerman, my 
chief finance officer, Ed Stephenson. I also have with me our 
procurement director, Karen Chambers, and general counsel and 
other staffers, and I am sure I will have to rely upon them for 
some responses to some of the questions, if I may.
    Senator Brownback. Yes, sir.
    General Becton. You have heard the challenges we faced when 
we arrived in November of 1996, and I repeat only this portion. 
According to the Control Board, by virtually every measure of 
performance, the Public School system failed to provide a 
quality education for all children and a safe environment in 
which to learn. The system was broken in fundamental ways, and 
the public had lost confidence in the schools. These long 
standing problems were created over decades, and they cannot be 
erased overnight.
    Perhaps I should mention here that this was probably the 
first lesson learned for me. People are impatient. The public, 
the City Council, and even the Congress seemed to expect almost 
immediate progress, sometimes forgetting just how long it took 
us to get to the point that we are in.
    I, too, have been frustrated by the rate of progress, but I 
know how far we have come. We have made progress in the 
relatively short period this administration has been in place. 
We have focused on making improvement in three core areas, and 
you mentioned those, academic achievement, personal and 
financial management, and facilities.
    I am pleased to report that we have made real progress in 
all three areas. We have learned quite a few lessons along the 
way.
    In academics, we have taken dramatic steps to begin 
improving student achievement. We have brought on board a 
highly qualified chief academic officer who came to the 
District with a clear plan and a proven track record. Arlene 
Ackerman, our chief academic officer, is here with me today, 
and I would like to introduce her and have her join me up here.
    Senator Brownback. Ms. Ackerman, please join us.
    General Becton. She has reminded me that she has a 2:30 
appointment with the Secretary of Education. I think that is 
correct.
    Senator Brownback. Well, that can wait. Tell him you were 
in front of the Senate.
    General Becton. OK. Ms. Ackerman has developed content 
standards that clearly define what students should know and be 
able to do. She is implementing promotion gates to end the 
practice of moving students on, even if they are not performing 
at grade level.
    We are planning a massive summer school program that Dr. 
Ladner has already mentioned for students who tested below 
basic and hope to be promoted this fall. We expect up to 20,000 
students, or 1 out of 4 of our students, to participate.
    These are, indeed, dramatic steps, and, yet, while parents 
have been largely supportive of our efforts, some observers had 
criticized us for not moving more quickly on the academic 
front. Once again, I learned a lesson. We should have brought 
Ms. Ackerman on board in November 1996 as opposed to September 
of last year, after a nationwide search.
    My friend, Paul Vallas, who heads up the reform effort in 
Chicago on which our efforts were modeled, brought 40 
professionals with him when he took over. I had one. Paul 
Vallas had the support of the mayor, the City agencies, and the 
City Council. I had none of these. Mr. Vallas had the luxury of 
taking over Chicago Public Schools in July. He had 2 months to 
prepare for his first academic year. I was appointed after the 
school year began. Here in the District, we had to do something 
akin to rebuilding an airplane in mid-flight. We cannot always 
set the rules of the game; nevertheless, we are moving forward.
    In the area of personnel and financial management, we have 
made progress as well. We balanced our budget in fiscal year 
1997 for the first time in 5 years. We downsized the 
organization and shifted personnel out of the central office 
into the schools. It has been a slow and difficult process. We 
have had to work with historic data that is unreliable. We are 
dependent upon dysfunctional data management systems, and we 
are tied to a City payroll system which is slow and arduous.
    I will now turn to facilities. As you know, this 
administration inherited a massive facilities problem, 
estimated to be about $2 billion by GSA. Routine maintenance of 
our schools have been neglected for years.
    When we arrived, there was no long-term capital plan in 
place, and school maintenance had been contracted out to a 
private vendor under an arrangement that we judged to be costly 
and inefficient. As you know, fire code violations were 
abundant.
    We drafted a long-range capital plan in time to meet the 
congressional deadline. We voted to close 11 schools. We began 
disposing of surplus property that had previously been allowed 
to stand empty for decades.
    We repaired or replaced over 60 roofs. We did not patch, as 
people had done in previous years. In fact, we fixed roofs this 
summer that had been patched countless times before. We did not 
just put on a new roof. We also did the deferred maintenance 
that was necessary to ensure that those new roofs would last. 
As the GAO noted, we had to do this work to get long-term 
warranties we wanted. Those warranties protected the public's 
investment.
    As the GAO said, these were not ordinary roof jobs. In many 
cases, we did major upper building repair, to repair damage 
caused by years of deferred maintenance. In addition, we worked 
on numerous different types of roofs, some of which are much 
more expensive than the basic flat roof you usually find in the 
suburban areas.
    We did this work on a compressed time schedule driven by 
the court order, which meant higher labor costs. Were the GSA-
managed projects completed at a lower cost? Yes, but the GSA 
projects were far less complicated, and they were done in a 
much more reasonable time frame. In my view, GAO fully 
understands the circumstances under which we worked, and it 
does not believe that we overspent on the projects, given those 
circumstances.
    Could the process be improved? Yes. Did we learn from our 
mistakes? Yes. Have we made changes as a result? Yes. For 
example, we now have set up a new document control process to 
ensure that contract files are well maintained and can easily 
be audited.
    I do hope, however, that we do not lose sight of the 
progress that we have made last summer. Under extremely 
difficult circumstances, the public got a quality product for 
its investment. Children in almost one-half of our schools are 
warmer and drier than they were before we did the work.
    This is a real movement forward, and I am proud of the 
dedicated staff and competent contractors who made it happen. 
In this respect, I have several letters from the contractors I 
will pass on to the Subcommittee for your review at some later 
date.\1\
---------------------------------------------------------------------------
    \1\ The letters submitted by General Becton appear in the Appendix 
on page 124.
---------------------------------------------------------------------------
    Senator Brownback. I am pleased to have those.
    General Becton. I will take care of that.
    In closing, I would again like to invite you to visit any 
of our schools as soon as possible.
    Also, Ms. Ackerman would like to meet with you and discuss 
with you her detailed plans for academic improvement. I hope 
that such a meeting can be arranged as soon as possible, sir.
    Thank you for the opportunity to testify. I am prepared to 
respond to your questions.
    Senator Brownback. Thank you, General.
    Again, there is a troubling set of facts that have come 
forward, and I just want to go right at those.
    On the school repair issue, you have both been here and 
heard the testimony. Mr. Cotton stated--and I asked him twice 
about this--that the circumstantial evidence of fraud had 
occurred in the D.C. School repair.
    I do not know, Dr. Ladner, if this would be best to direct 
to you or to General Becton, but what steps are you taking 
specifically to make sure that does not happen in the future? 
And then I want to address the line of questioning also, then, 
to look back at what steps we take to make sure that we catch 
any perpetrators of fraud on the D.C. Schools.
    Ms. Ladner. I will answer part of it, and General Becton 
can answer the rest.
    Assuming there was fraud, assuming the IG finds that to be 
the case, because the Authority has no proof at this time that 
there is fraud, then the first thing, order of business, is 
that we have placed or are in the process of placing 
procurement functions under the chief procurement officer for 
the City. I think centralized functions here will provide a lot 
more scrutiny.
    Senator Brownback. When will that be completed by?
    Ms. Ladner. I will have to get that information back to 
you, but it is in process now.
    Senator Brownback. So that, we will not have the situation 
where you can just have a procurement officer put it out on 
short-notice bids and then----
    Ms. Ladner. Not at all, sir, because part of what happened 
with some of the change orders last summer was, if you recall, 
we were also in court dealing with Fire Code violations, and if 
the Fire Department went to inspect a site where a roof had 
been put on a building, even though all of these buildings had 
been inspected prior to the roof being put on, the judge 
ordered--gave a blanket order that all schools be reinspected, 
even though they had previously been cleared of Fire Code 
violations.
    So that, a violation could be as small as--fix it within 5 
minutes or it could be something major, but all of these were 
things that fed into the change order.
    I do not think we are dealing here--I have seen no evidence 
that we are dealing with--what do they call it in the 
industry?--low-balling a figure of a roof at a considerably low 
level and then coming back with a change order in order to get 
the bid.
    Senator Brownback. There did not appear to be any low balls 
here to me.
    Ms. Ladner. No.
    Senator Brownback. I am not positive of this, but----
    Ms. Ladner. The point I am trying to make here is that 
there is--I have scrutinized these documents very carefully 
several times, and I did not see any evidence here or any of my 
other discussion with people in the school system that we were 
getting a lot of change orders. I think GAO found--was within 
the scope of about what? $3 million or so----
    General Becton. Yes.
    Ms. Ladner [continuing]. Total change orders in what they 
examined, about $3 million. So that is not millions and 
millions. You would never want any change orders, but for a job 
of this size, I would not consider that amount to be out of the 
ordinary.
    Senator Brownback. Are you going to be pursuing this 
aggressively?
    Ms. Ladner. Absolutely. We have had many--I mean, our staff 
have had many meetings with Mr. Cotton. I know Mr. Cotton from 
having heard his report. Our board has--we have had good 
working relations with him, and as I said, we met with him in 
executive session. I think that the allegations that are being 
made here today are a lot stronger than those we heard. So it 
has taken me a little by surprise.
    Senator Brownback. I think we have to pursue this 
aggressively, and we have to put the systems in place in the 
future you do not allow, as he describe, the opportunity to 
occur so freely and easily.
    As you heard me pose to him, we were in an emergency type 
of situation. School was 3 weeks late in getting opened up. We 
were in a very difficult box, but at the same time, you can 
still maintain systems that do not allow the opportunities as 
frequently or as easily for fraud to occur.
    Ms. Ladner. I agree with you totally. Our view was that 
despite the emergency situation that it was still necessary to 
be able to document the files, and that it was not an either/or 
situation. I can reassure you that this kind of situation will 
not occur again.
    We also made inquiries and were told that the files were 
being documented.
    Senator Brownback. General Becton.
    General Becton. Thank you, sir.
    First, I have heard the extent of Mr. Cotton's remarks 
about the fraud for the first time. The report that I read, and 
the briefing I heard, said that the potential for fraud 
existed. I did not hear anything stronger than that until I sat 
here in this building today.
    Change orders were less than 5 percent. I am told in 
industry, that is a natural thing. I am not an engineer, but 
that is what I have been told by our people.
    We have relocated and reorganized our procurement unit, 
even before it goes over to the City. We did that sometime ago. 
We have a new director. We have five individuals with 
contracting experience.
    The program offices have been briefed on procurement office 
procedures and we have stressed to them that only a contract 
officer can award a contract or authorize a change order. I 
believe we are taking the steps to preclude what I heard today 
may have been the case.
    Senator Brownback. And we will be following up with you on 
those systems approach and the changes of systems.
    General Becton, this fall, school will start on time?
    General Becton. School will start on September 1. I have 
every expectation of that. There has been some discussion that 
DCPS should go with the rest of the area, and wait until after 
Labor Day to begin the new school year. In my view, if I were 
to authorize beginning school after Labor Day, I may just as 
well leave town.
    Ms. Ladner. I think so.
    Senator Brownback. September 1?
    General Becton. September 1. And by the way, that date was 
picked by the elected School Board when it announced the 5-year 
plan about 3 years ago.
    Senator Brownback. Are there any factors out there that 
loom that may put that date off for----
    General Becton. The only reason, sir, that we were 3 weeks 
late before, was because we had a judge who said we cannot open 
schools at the same time we were replacing roofs. That is the 
only reason we were late.
    Senator Brownback. But you do not have that sort of 
circumstance----
    General Becton. We do not have a judge this time.
    Senator Brownback. Right. You do not know who files 
lawsuits when; that they might allege something, somewhere, but 
you do not know of any circumstances that exist to date that 
would draw that opening date past----
    General Becton. I do not know of any circumstances that 
exist.
    Senator Brownback [continuing]. September 1?
    General Becton. September 1 is the date that was selected, 
and we will be opening our schools on September 1.
    Senator Brownback. You are going to have a heavy load this 
summer, too. Apparently, you are going to have 15,000 to 
20,000, did you say, students?
    General Becton. That is correct.
    Senator Brownback. And these are students that have not 
passed--that you are not passing for social reasons, and so 
they have to take summer school or----
    General Becton. I am not saying for social reasons.
    Ms. Ladner. Those are for academic reasons.
    General Becton. If you do not mind, I will let Arlene 
answer, please.
    Ms. Ackerman. Actually, it is a combination. We will not 
know until we administer the test in the spring--but we know we 
have a substantial number of students who are scoring below 
basic in either reading and math or in both reading and math. 
What we are trying to provide in the summer school is an 
opportunity for all of those students to sharpen those skills.
    Senator Brownback. OK. An opportunity or a requirement?
    Ms. Ackerman. A requirement for some, an opportunity for 
others who will be passed on. What we are trying to do is use 
summer school as an intervention strategy for students who have 
shown us that they need remediation in either one or the other 
of these two core subject areas.
    For many of our students, about 12,000 students, they will 
be going as a requirement because they have scored below basic 
in both reading and mathematics.
    Senator Brownback. At what level? Is this throughout public 
education or which students?
    Ms. Ackerman. It is grades 1 through 11, and 12th graders 
can go for Carnegie units.
    Senator Brownback. So you anticipate you will have 
approximately 12,000 students that will be required to attend 
summer sessions?
    Ms. Ackerman. And that is based on last spring's test 
scores which, by the way, are really baseline scores. It is the 
first time we had administered that test system-wide.
    Given the strategies that we have already put in place to 
improve student performance, I do not anticipate that we will 
have that many, but we have planned for up to 20,000 children, 
based on last spring's results.
    Senator Brownback. Let me turn your attention to these test 
results, of which I am certain all of you were concerned at the 
low performance level that existed, and, particularly, the two 
high schools that did not have a single student in the 10th-
grade scoring at math competency. I thought it was appalling.
    Now, are these what you anticipated to date, and where can 
we see these numbers going to in the spring and next year?
    Ms. Ackerman. I would anticipate that you will see the 
numbers of students who are scoring below basic to decrease, 
the number of students who are scoring at basic to increase, 
and the number of students scoring at proficient and advanced 
levels also to increase.
    We have really focused our attention this year in all of 
our schools on academic achievement. All of our schools have 
school improvement plans. We have identified our students who 
are scoring below basic in reading and math. We have put in 
place after school, before school and in-school, tutoring 
programs. We have focused our corporate and community partners 
on reading. So there are major strategies that we have put in 
place that I think will improve these test scores this spring. 
I am confident that will happen.
    Senator Brownback. What are your objectives for these test 
changes this year, this spring? What are you saying? What is 
your objective for getting these results improved?
    Ms. Ackerman. Well, the objective is that every school will 
show improvement in these scores.
    Senator Brownback. How much improvement?
    Ms. Ackerman. What we have said is that all schools must 
show improvement for our students. In our schools where chronic 
under-achievement has been a problem, there is a problem, they 
have a 10-percent target that they must meet.
    There are 23 schools of those schools that are in--we call 
them targeted assistance schools. These are schools that have 
shown us some real serious deficiencies in terms of student 
achievement, and we did put in place a target for them.
    Senator Brownback. For instance, the two high schools that 
had zero students scoring at basic level in math at the 10th 
grade, what is the objective, the stated objective for that 
high school performance measures?
    Ms. Ackerman. We have met with all of our schools. Based on 
those meetings and the test scores, we have identified now a 
new set of schools that we know need extra assistance. We have 
identified them as new targeted assistance schools. We are 
working with those schools, and to develop plans for 
improvement for each of them. We are putting in, again, 
strategies to help these students improve. We are putting more 
staff in these schools, and we are providing targeted 
professional development for these teachers.
    Senator Brownback. I understand the general, but I want you 
to take me through specifically what is the objective for 
those----
    Ms. Ackerman. The objective is that they will----
    Senator Brownback [continuing]. Two high schools, and what 
is the specific plan of how we get there.
    Ms. Ackerman. I believe that you have to look at this on 
multiple levels. You have to provide professional development. 
You have to have an instructional program that is tailored to 
meet the needs of those students who are scoring below basic, 
and then you have to set some targets for performance. At this 
time, our targets for the targeted assistance schools are 10 
percent.
    This new set of schools was just identified this year.
    Senator Brownback. Let me be specific with that. Then those 
two high schools that had zero math competence, math at basic 
competency levels, your objective this spring is for them to 
have 10 percent of their students at basic math grade level?
    Ms. Ackerman. No. Our objective for our targeted assistance 
schools is that they will improve their overall test scores by 
10 percent.
    Senator Brownback. So everybody's test scores will go up 10 
percent.
    Ms. Ackerman. We are looking at the overall scores, in 
those schools; the overall school scores should improve by 10 
percent.
    Senator Brownback. What happens if they do not?
    Ms. Ackerman. For those schools that were newly 
identified--and those two high schools were not in the original 
cohort of schools--they have 2 years to improve. All schools 
get 2 years to improve. The 23 schools that were identified 
last year will be reviewed at the end of this spring as 
targeted assistance schools. They must show improvement at the 
end of this school year or they will be reconstituted.
    Those schools that have been newly identified have 2 years 
or two test score periods to improve, counting this year and 
next June. The two high schools you mentioned are in the second 
group. They are receiving major interventions now.
    Senator Brownback. So that, if those test results do not go 
up this year----
    Ms. Ackerman. We will look at reconstitution for those 
schools, the first 23. We will be looking at those schools.
    Senator Brownback. When you say reconstitution----
    Ms. Ackerman. It means starting over again, looking at 
those schools, identifying new staff, new principals, and 
starting over with research-based design models that have 
proven track records for student achievement.
    Senator Brownback. So that some of the principals may be 
removed if these test results do not go up?
    Ms. Ackerman. In those schools, yes. The entire staff will 
have to reapply for their jobs. The whole schools will be 
emptied out.
    Senator Brownback. I am a little concerned, if I understand 
this correctly. You are saying 2 years to improve 10 percent. 
Is that correct?
    Ms. Ackerman. Each year.
    Senator Brownback. Each year, 10 percent.
    Ms. Ackerman. Right.
    Senator Brownback. So we are up 20 percent----
    Ms. Ackerman. Right.
    Senator Brownback [continuing]. Over 2 years.
    Ms. Ackerman. That is a minimum.
    Senator Brownback. That seems a minimum to me. In looking 
at these results, if you have got these up 20 percent, we are 
still not at national averages, and we are doing that over a 
period of 2 years----
    Ms. Ackerman. Right.
    Senator Brownback [continuing]. And that does not seem to 
me to be fair to the D.C. Schools.
    Ms. Ackerman. Given the fact that we----
    Senator Brownback. Why not set a higher target and a 
stronger objective for them?
    Ms. Ackerman. I do think you have to set a reasonable 
target, and I think, given the fact that school did not open 
on-time, given the fact that basic infrastructures were not in 
place, that if you look at what other districts are doing, what 
we are doing is reasonable. In fact, if you look at Chicago, 
they have not set targets at all. They have only said that 
schools have to improve. We have set targets that schools have 
to improve by a certain amount, especially the schools where we 
have expressed some real concern.
    I think that we have to put in place some infrastructures 
that were not there in the past. We did not have system-wide 
standards. We did not have alignment between the standard and 
the curriculum. Last spring was the first time we had given 
this test (the Standford-9 Achievement Test). Before that, we 
had used the same test for the period of 9 years, so we were 
not even getting good data.
    We did not provide professional development for teachers, 
and require them to go. With all of those things we are now 
putting in place, I think that we can then begin to set the 
targets higher, but this year, it was at 10 percent, given all 
of those factors for those schools that we have identified as 
needing immediate support.
    Senator Brownback. If a student does not score at basic 
competency level, then will they be required to go to summer--
--
    Ms. Ackerman. If they score below basic, in reading and 
mathematics, they have to go to summer school.
    Senator Brownback. And this is 1st through 11th grades?
    Ms. Ackerman. For 1st through 11th.
    Senator Brownback. Well, I would urge you to up the goal. 
Maybe it is because I have kids that this seems so precious and 
so important and so critical that it happens in a timely 
manner.
    I realize we can all talk about, well, a year, 2 years, 
these things will happen, but, my goodness, I mean, each of 
those children, each year they peg through the system, if they 
do not get it now, they are not going to get it.
    Ms. Ackerman. Well, Mr. Chairman, I want you to know that I 
have spent 29 years as a teacher and in education. It is my 
life. And I certainly do understand setting clear expectations 
and high expectations.
    I do, though, need to tell you, in the 29 years that I have 
been in this business, I have never seen a system so broken. 
You have to put in place those infrastructures that I talked 
about--both the personnel and the financial management systems 
to support schools and what we are putting in place on the 
academic side. I believe there are reasonable expectations to 
start, and I believe that we can ratchet the standards higher 
in the future.
    Senator Brownback. I do not think you are fast enough. I 
really do not. This is not good enough for us as a nation. Look 
at the number, 61 percent of our 10th graders are not scoring 
at math competency in the Nation.
    Ms. Ackerman. I did not say I was satisfied with that. I 
do, though, believe we have a clear plan for improvement.
    Senator Brownback. Well, I understand that, but you had 
basically said that then--General Becton, you have been on 
board since September of when?
    General Becton. Sixteen months. I came in November 1996.
    Senator Brownback. November 1996. That was 2 years from 
now----
    General Becton. No, that is not what--I do not think she 
said that, sir.
    Senator Brownback. OK. Then I want to get it straight what 
we are saying.
    General Becton. The targeted assistance schools for the 2 
years that----
    Ms. Ackerman. Right. Those schools----
    Senator Brownback. Wait. Let me make my question clearer.
    Ms. Ackerman. OK.
    Senator Brownback. At what point in time will we be at 
national--at basically, roughly national levels on math and 
reading in the D.C. Public Schools?
    Ms. Ackerman. My goal is to have that within the next 3 
years, but I think it depends upon the grade level.
    At our 1st grade, we start at the national average. So we 
are already there. We would have to look at it grade by grade, 
and at some grade levels, we are certainly closer to that than 
others.
    Given this very clear focus on student achievement, I think 
you will see us get there in some grades a lot quicker because 
we are closer to the national average. As I said, at the 1st 
grade, we are there. I think you will see us improve at every 
level.
    Senator Brownback. So, 3 years from now, we will be at the 
national average?
    Ms. Ackerman. My goal is to get us there within that 3-year 
period, by the year 2000.
    Senator Brownback. General Becton, you will have been on 
board then 4 years and some months and we will get to the 
national average at that point.
    General Becton. Not really because we go away June of 2000. 
We have until the year 2000, June, before we turn it back over 
to the elected officials.
    Senator Brownback. So we do not even have a plan while you 
are in office for us to get to national averages.
    General Becton. Sir, I do not have the numbers in front of 
me, but we can get the numbers for you.
    We are a member of the 50 urban area schools. You will not 
find any, to the best of my knowledge, of those 50 urban 
schools that are at the national average. We are trying to be a 
model. We are all working towards that goal, but when you have 
kids in the 10th and 11th grades who have had a social 
promotion, who can graduate as they did last year and read at 
the 6th-grade level with a diploma in their hand, it is going 
to take more than 2 years to get that child up to speed.
    Senator Brownback. But we do not even have a plan in place 
to get us to national average, and I realize what you are 
talking about.
    General Becton. We do have a plan.
    Senator Brownback. Well, no, you are saying you go out of 
existence by 2000, and we are not going to get there for 3 
years yet from this point.
    Ms. Ackerman. No, we have a very clear academic plan that 
included standards, professional development, and clear 
guidelines for promotion. It is very clear.
    Senator Brownback. Let me put it one other way, then.
    Ms. Ackerman. OK
    Senator Brownback. Will we be at national average by the 
time General Becton's job has concluded?
    Ms. Ackerman. That is our goal.
    Senator Brownback. Thank you. I will accept that.
    We have got to do this, and I know I am haranguing on you, 
General Becton. It is just that this is tough----
    General Becton. But I would like to have the necessary time 
to----
    Senator Brownback [continuing]. And we need to set that 
objective. If we do not set that objective, we will never hit 
it.
    General Becton. Can we have time to explain the plan that 
Arlene has? I do not think this is the place to do it, but we 
would be more than happy to set down and go over, step by step, 
how we propose to do it.
    Ms. Ackerman. And, Mr. Chairman, I would like to say that 
being at national average would not be my ultimate goal. It 
would be above the national average----
    Senator Brownback. Absolutely.
    Ms. Ackerman [continuing]. Because I would like to see us 
exemplary.
    Senator Brownback. Absolutely.
    Ms. Ackerman. And exemplary is above the national average.
    Senator Brownback. And that is what has concerned me about 
this dialogue here, I did not think we really were even looking 
at trying to and setting that as a goal. I realize you set that 
as a goal and if you do not make it people say you fail, but if 
you do not even set it as a goal, we are not going to get 
anywhere close to it. You have got to set that.
    Ms. Ackerman. The new vision is to be exemplary. You cannot 
be exemplary if you are just average.
    Senator Brownback. And we have got to have the plan to do 
that. Dr. Ladner.
    Ms. Ladner. I was simply going to say that we should 
separate the two issues here. One is that when the emergency--
state of emergency was declared in the schools, the financial 
authority set a sunset provision, so that these schools would 
in 2\1/2\ years return back over to the elected school board 
and so on, but the second factor here is that the education of 
the children and the goals that are set by the educators will 
continue, and we are not placing some timetable on--or at least 
these two factors are not consistent.
    I am not saying that we are going to stop making the 
progress when General Becton leaves. We are saying that what we 
brought the emergency team in to do was to do the turnaround, 
fix what Ms. Ackerman just called the most irretrievably 
broken--I used ``irretrievable'' as my term--broken system that 
she has worked in for 29 years, and do all those things for it 
that will lay the groundwork so that the progress can be made 
rapid and continuous. We fully expect that to continue no 
matter who is at the help of the schools.
    I would think that this community would demand, after 
General Becton's team is no longer there, accountability from a 
top-ranked educator who will continue to make sure that we 
become an exemplary school.
    Senator Brownback. Well, thank you. I will look forward to 
meeting with you, Ms. Ackerman, to talk about this. Since we 
met the first time around, I have continued to be very 
concerned about the lack of performance taking place, and I do 
not think we are moving rapidly enough, and I hope that you 
feel similarly that we have to move more rapidly not only in 
the academic results, and we have not talked to General Becton 
today, but also about the safety issues within the schools.
    Actually, do you have a comment about how that has occurred 
here lately?
    General Becton. Yes, I have.
    Senator Brownback. Because the numbers that I cited are 
very troubling as well.
    General Becton. The data we have shows that reports of 
violent crimes in the categories of simple assault, sexual 
assault, and fighting have increased over the past 2 years, 
while reports of assaults with a deadly weapon have occurred at 
about the same rate.\1\
---------------------------------------------------------------------------
    \1\ Letter from General Becton appears in the Appendix on page 134.
---------------------------------------------------------------------------
    However, there are two factors that impact these numbers. 
First, as an administration, we have said to school staff that 
all incidents must be reported. In the past, I think we can 
clearly show that some principals did not report incidents in 
their schools because they believed those reports would ``look 
bad'' on their records. This is no longer the case. Therefore, 
while more incidents are being reported, it does not 
necessarily follow that more incidents are occurring.
    In addition, as you know, we installed new metal detectors 
in many of our schools during this period. Previously, schools 
did not have metal detectors or the metal detectors did not 
work well. This new security technology is helping us to pick 
up weapons that previously may have gotten into the schools 
unnoticed. Therefore, our numbers for weapons possession have 
gone up over the period. However, I view this as positive 
indication that our methods of identifying weapons and 
confiscating them are working.
    Over the past 2 years, by increasing incident reporting 
rates and enhancing technology, we have essentially established 
a legitimate baseline for security. It is my hope and 
expectation that we will see a decrease from that baseline in 
the coming years.
    Senator Brownback. The figures I have show a huge number of 
violent incidences taking place, 1,600, I think that we had 
reported.
    General Becton. I do not recognize that number, except the 
1,600 I remember was Fire Code abated, but that is not what you 
are talking about.
    We have 197 knives, 8 cans of pepper spray, firearms, those 
things that we have identified specifically, and we can give 
you a chart of all of those kinds of weapons that we have 
identified.\2\
---------------------------------------------------------------------------
    \2\ Chart referred to appears in the Appendix on page 133.
---------------------------------------------------------------------------
    Senator Brownback. Good, because the students and the 
teachers have to feel safe, as you noted previously.
    General Becton. I understand that clearly.
    Senator Brownback. Well, thank you. There will be a 
continued review in the U.S. Senate on D.C. Public Schools. You 
have seen various different proposals come forward from Senator 
Lieberman and myself on charter schools and their expansion, 
and on vouchers for low-income parents.
    I know that there had been a private voucher program where 
1,000 voucher scholarships were offered, and this is according 
to an article today in the Washington Post. Over 7,500 
applicants, about a tenth of the total of Public School 
enrollment, enrolled for those, and we will see those efforts 
continue as we try to provide additional options, and I would 
like to think competition, too, for you that will help further 
spur on growth and improvement in those test results because 
that is what we are all after.
    General Becton. We encourage charter schools because they 
do bring about competition.
    Senator Brownback. I hope you will encourage vouchers, too, 
here sometime, General Becton. You and I have been around about 
that a few times.
    General Becton. Why don't we have a referendum for the 
City, let them figure it out?
    Senator Brownback. Well, it seems like 7,500 parents have 
sure voted here on these scholarships, but I appreciate your 
input.
    I hope we can meet. I am glad that you have set a goal to 
at least get at national standards by the year 2000 because I 
think we have to at least do that, and we should do much, much 
better.
    Thank you very much.
    General Becton. Thank you, sir.
    Senator Brownback. Our final panel presentation will be a 
parent of D.C. Public School students. Taalib-Din Uqdah is the 
presenter, and we would welcome you to the panel.
    Mr. Uqdah, thank you very much for joining us today.

  TESTIMONY OF TAALIB-DIN UQDAH, PARENT OF D.C. PUBLIC SCHOOL 
                            STUDENTS

    Mr. Uqdah. Yes, sir. I thank you for having me here as 
well. I would like to at least take a few minutes to introduce 
myself to you. I do not come with any commas behind my name. So 
I am not a bureaucratic official. However, I am a businessman 
here in the District of Columbia. I have been self-employed for 
at least the last 24 years.
    I am 45 years old, and I am a native Washingtonian. I am 
also the custodial parent of my niece who is a 1st grader, 6 
years old, and my nephew, who is a 6th grader, 11 years old, at 
Shepherd Elementary School here in the District of Columbia.
    I think the greatest distinction that I have in sitting 
before you is that I am a product of the D.C. Public School 
system. So I am able to testify as an expert witness, as it 
were, on what I knew the system to be.
    I considered the system at that particular time to be a 
success, and I am basing that on my own personal success as a 
businessman here in the District of Columbia. I did not go past 
the 12th grade. I graduated from Eastern High School in 1970. 
However, I do feel that my education in the District of 
Columbia prepared me for life.
    My business, I started with $500 and a 4-year lease on 
someone else's building. Today, I employ 14 people. I own my 
own building that has a value of over $400,000, even in a bad 
market, and I have consistently grossed nearly a half-a-million 
dollars a year for the last 10 of the 18 years that I have been 
in this business in particular.
    The bottom line is, sir, that I am not a burden on society. 
I do, however, have to advise this Subcommittee, or at least 
advise you, that what was the norm for me is no longer the 
case.
    I do not like what is happening today, nor do I feel the 
confidence in the present system to educate my two children.
    Despite my own parents' constant insistence that I 
personally attend college, I chose not to do so. In fact, 
everything that I learned within the D.C. Public School system, 
I actually learned by the time I had finished junior high 
school because I went to a progressive junior high school at 
that time where they were giving us progressive college 
preparatory courses. So, by the time I went to high school, all 
I had was the same books, but just different teachers. At that 
particular time, the system did not have a high school to move 
us on to the next level.
    We did not have the luxury of a Banniker High School or a 
Duke Ellington, which are a couple of the schools in the 
District of Columbia that have been set aside for students that 
have high academic achievement or to achieve higher levels of 
excellence in the arts.
    However, we were truly like the generations having preceded 
us in that we were the children our parents were raising in 
order to save America. Now I find that we have to raise the 
consciousness of America in order to save our children.
    I believe within the present Public School system, there is 
a lack of commitment, compassion, professionalism, and a 
general feeling of distrust amongst for and towards 
administrators. The D.C. Public School system has no connection 
with reality, no connections with the day-to-day struggles we 
make as parents, willing to sacrifice everything for the 
education of our children. Even if they do not appreciate it, 
it is what we must do or regret later not having done it.
    Those impositions to make decisions in the best interest of 
the students and their parents do not. They have made them in 
the best interest of the administration, choosing instead to 
protect the system and their employment status within it, not 
to rock the boat or the proverbial apple cart that they do not 
want to upset. That is why PTA meetings are held only once a 
month, on a week night at the most inopportune time for 
parents, with single parents bringing up a child or children 
alone, where parents with children at two or three different 
schools or grade levels find it impossible to participate at 
all, where information is scarce, sporadic, and in many cases 
slow in coming, if at all.
    I, like many parents, believe it is by design. For the less 
we know, the less likely it is that the natives will become 
restless. So important telephone numbers that we need to know 
as parents, numbers that will help us through the system's 
bureaucratic maze, is a well-kept secret, doled out if at all 
once a year at a strategic PTA meeting and not printed for all 
of us to know and understand the process, where policies and 
rules are learned on an incidental or need-to-know basis, but 
not common knowledge amongst the majority of parents.
    This is why our present Public School system is 
experimental with a heavy emphasis on socialization and not 
academics, with a grading system of proficient and in process 
and not the typical alphanumeric system we are accustomed to.
    This is why the focus of attention is now on test and 
testing procedures and not a comprehensive knowledge-based 
approach. Teachers have been threatened with termination, non-
promotion, or some form of discipline should their charges fail 
to perform adequately on the upcoming performance test in 
April. So the focus on educating children, is not what we can 
teach them, but how can we prepare them to pass the test.
    This is why today's administrative educators will support a 
pre-K and Kindergarten curriculum of inventive spelling, 
allowing children to purposely misspell words in order not to 
stifle their creative writing skills, or while within the D.C. 
Public School system, emphasis is not placed on reading until 
the 1st grade where students are expected to read, but they are 
not taught in the pre-K or Kindergarten curriculums, and 
phonics is not only discouraged as a learning tool, but with 
many experienced teachers, snuck into the curriculum.
    This is why when you bring these concerns to teachers and 
administrators, they defend or make excuses for the present 
system, rather than embrace your recommendations or 
suggestions. They leave you feeling that your way is the old 
way, and it really did not work for you. You only think it did.
    These new methods are now considered to be not the best 
way, but the way, and if you do not like it, perhaps you should 
put your child in a private school, as my wife was instructed 
to do by one of Amber's pre-K teachers, but the truth of the 
matter is, it has not only become the best way because someone 
has invested hundreds of thousands of dollars in making it that 
way, and now that they are reaping the rewards of that 
investment, all the reports, all the studies, and all the 
surveys done by public and private companies who have a vested 
interest in selling their teaching methods to a beleaguered 
public system like ours have shown that this is now the best 
way to educate our children and we buy into it blindly.
    Administrators know it is experimental. Parents think their 
children are being educated, not experimented upon, but we are 
stuck with it. The administration first becomes defensive, then 
committed to it, not because it is the best, but because they 
own it.
    Now the onus is put on us as parents to act as teachers, 
and the schools only reinforce what we provide, when my 
understanding and those of others has always been that the 
system would educate our children and we as parents would only 
reinforce what they have acquired during the course of the day. 
Everything has now been turned around.
    Our children have become business decisions, a brokered 
commodity to be traded on the open market for poverty and 
ignorance, hopelessness and despair, drug addiction and 
nonperformance, vegetative states of ignorance and walking 
social misfits, for the latest in designer fashion, hip-hop 
culture, and various doses of entertainment drugs, be it 
cocaine and marijuana or hard stuff like sports television, 
video, video games, etc.
    So what do we do? I have made certain recommendations, for 
example, that we require uniforms for pre-K through 12th grade, 
but with a different approach. Let the kids design the 
uniforms. Let them travel to the Carolinas and pick out the 
fabric, set the production schedules, the shows to display 
their wares, the accounting system to bill parents who cannot 
afford the cost of uniforms. The students can set a Goodwill-
type store that take clothing in for younger children or 
graduates who have outgrown the clothes, set up embroidery 
machines for children who may want uniforms with a personal 
touch. They will learn by doing.
    And I have made other recommendations as well. In the 
interest of time, I will not repeat them.
    However, if we can only find someone in this system with 
half a brain, recommendations like these would work, and the 
same could be said of any of the other trade services or retail 
industries in America. It would encourage kids to go to college 
who want more out of life, and for those who do not, what is 
the worst that will happen? They will have an experience of a 
lifetime and a skill they can take anywhere in the world and 
earn a living. It is a win-win situation for everyone. It does 
not reduce or diminish academics. In fact, I would submit to 
you that it only enhances it. It makes academics practical. It 
can teach math, history, science, economics, and English all at 
once. It makes education exciting for young minds.
    We can then walk away from this process and know that we 
have done the best for our children to prepare for the coming 
century; that, if nothing else, we have created individuals who 
may or may not be high academic achievers, but the one thing 
they are not is a burden on society, and isn't that what it is 
all about?
    I thank you, and if you have any questions, I would be glad 
to answer.
    Senator Brownback. Thank you, Mr. Uqdah, for your 
testimony.
    You have two children in the D.C. Public Schools?
    Mr. Uqdah. Yes, I do.
    Senator Brownback. What grades are they in?
    Mr. Uqdah. First and 6th.
    Senator Brownback. And your 6th grader has been in the D.C. 
Schools the whole way?
    Mr. Uqdah. He has actually been in since the 3rd grade. He 
came down from Providence, Rhode Island, after 1st and 2nd 
grade.
    Senator Brownback. So he has been in the school system for 
3 years, then?
    Mr. Uqdah. Well, this is his fourth year.
    Senator Brownback. Going on the fourth year?
    Mr. Uqdah. Yes, sir.
    Senator Brownback. Does he feel safe in the school?
    Mr. Uqdah. Safe, I would tell you yes.
    Senator Brownback. Does your daughter feel safe in the 1st 
grade?
    Mr. Uqdah. Safety at this particular school is not a major 
issue.
    I have questioned some of the disciplinary actions in which 
the principal has taken whenever there have been physical 
altercations which have taken place in the school.
    I quite honestly do not know what the policy is on any 
force or any discipline problems, and you only really find out 
what they are at the point that the discipline is either meted 
out or the point the altercation actually occurs, but Shepherd 
is not a school that is equipped, nor do I feel it needs to be 
equipped, with metal detectors or anything of that nature.
    It does have a security guard that is posted at the school 
from at least 8:30 in the morning until close of school in the 
evening.
    Senator Brownback. What if you were offered the option of a 
private school voucher? Do you think that is a good proposal or 
not?
    Mr. Uqdah. Without question. And if I could, I would like 
to at least elaborate on it for a moment.
    Senator Brownback. Please.
    Mr. Uqdah. Prior to school vouchers being somewhat popular 
in today's political vernacular, I only recognized it as poor 
quality of education and being a tax-paying citizen who pays 
more than my fair share of taxes by virtue of the fact that I 
am a businessman in addition to being a homeowner and a D.C. 
resident. I felt as though the education system was not 
providing the type of education for my children that I felt 
would be commensurate with the amount of taxes that I was 
paying. So I have always looked for a way to be able to improve 
that by having an option, as you are saying, to be able to put 
them in a private school.
    Here lately, I have learned that what I have attempted to 
do is known as a school voucher. I just quite honestly did not 
have that type of definition for what I was looking to do 
within the D.C. Government, period, and I have testified before 
the City Council on this very thing, but I was not calling it a 
school voucher. I was only looking for a better way to have my 
tax dollars spent on education.
    Senator Brownback. Let me ask you, as a parent, you talked 
about the inability or the difficulty of being able to get the 
necessary telephone numbers to contact people and the PTA 
meetings not being regularly called. What are your avenues to 
express your ideas within the D.C. Public Schools?
    Mr. Uqdah. Forums like this, me calling up one of the 
parents of another classmate or they calling me. We are just 
kind of bouncing things off of each other.
    I did not come here with any illusions that my testimony 
was going to make a difference. Quite honestly, with you, I 
believe that I am only here to hear myself talk. I do not think 
that anything that I am saying before you or any of the 
administrators or the principals or the teachers who I have 
talked to for years about these problems are really going to 
make a difference.
    Senator Brownback. What do they say to you?
    Mr. Uqdah. For the most part, based on personal 
conversations that I have had with them, I feel comfortable in 
telling you that there are going to be many parents, including 
myself, that plan on putting one, if not both of their 
children, in private school next year, whether there are 
vouchers or not.
    Senator Brownback. But tell me what do the administrators 
and the teachers say to you when you express the sort of 
concerns----
    Mr. Uqdah. Well, basically, what they do is they tell me 
that that was the old way; that there are new systems now in 
place.
    I mean, this whole idea of inventive spelling, I have never 
heard to that. That is the most ridiculous thing I have ever 
heard of.
    Or, when my children come home with a report card and the 
grade is ``proficient'' or ``in process,'' I mean, what does 
that mean? I do not even know what that means. So I go in with 
questions, but I come away feeling as if I do not have any 
answers. So I continue to beat away at this process, and I do 
that by calling up private schools and asking them to send me 
applications for their schools, to allow me to come by and 
visit, because I am at the end. I do not know what else to do.
    There have been at least two moves in the District of 
Columbia to pass vouchers. My only objections to the vouchers 
as this Congress has tried to pass them is that they have only 
been limited to poor people. I have got a big problem with 
that--not you personally, but what is being suggested is that I 
go out and become homeless, and then all of these things will 
be available to me, and that is not the way the system should 
work.
    Yes, it is going to be a sacrifice for me and other parents 
to be able to afford to send our children to private school, 
but it is a sacrifice that we are willing to make. I have 
talked to other parents, and they feel the same way.
    I have been warned, as it were, not to bash the District of 
Columbia, but you cannot bash anything that is already broken. 
Bashing something is if I go out to your brand-new car and I 
hit it with a baseball bat, but if you have already got a dent 
in it, there is nothing I can do to make it any worse.
    So, when I hear people make certain comments, when I read 
in the paper that retired general has now quit--he has got 
close to $200,000 of my money, and he quit whining because he 
could not get my support. He quit because he could not get 
public support, but he walked away with his salary, a $30,000 
signing bonus, and a $38,000 performance bonus? That is 
ridiculous. That is what has got me down here. That is what has 
got me intense about this.
    I am not angry. I am just intense because it is not making 
any sense to me, because I have to go back home and I have to 
look my two children in the eye and try to explain to them why 
it is that I am down here testifying before a Senate committee 
about their education.
    What bothers me is I am a product of this very system, and 
I did not turn out so bad. There is no number in front of my 
chest. I am not a member of any penal institution. I do not 
have a police record, but I graduated from these same schools. 
I had a skills class that taught me how to take notes. I do not 
see that in the system anymore.
    I mean, how do you have a system that requires a 1st grader 
to know how to read, but they are not taught how to read in 
pre-K or Kindergarten?
    They have got a system in pre-K and Kindergarten now that 
requires the teacher, requires them under the academic system, 
to set aside 2 hours for socialization. Well, I am not sending 
my children to school for a United Nations experience. They can 
get that at home. That is why I have neighbors. That is why 
they have classmates, where they can go for a socialization 
process. I do not want my child off in a corner somewhere 
taking--in a kitchen pretending like she is cooking. She has 
got a kitchen at home. I am not sending her to school for that. 
I am sending her to school to learn, and that it is my 
responsibility as a parent to reinforce whatever it is she has 
learned when she comes home, but when she comes home, she 
brings home assignments by example, where she is learning how 
to tell time. She is learning right now the hour time and the 
half-hour time. I see the process that the teacher is beginning 
to take her through, and then she comes home and she is 
learning 5, 10, 15, 20, 25, 30. It is like a rhyme for 
children. I certainly remember it.
    But then the next time she comes home, she is learning 
coins. So I go to the teacher and I ask her what is happening 
here. She was learning time 1 day and coins the next day. What 
I am finding out is these teachers--her teacher like many other 
teachers have a curriculum that they have to get through in 
order to deal with this test by April. So, if they have a list 
of 40 things that they have to do, they want to be able to say 
to their principal, ``I did those 40 things,'' whether or not 
the student learned anything. That is not important. That is 
not the issue. The issue is, ``Did you get through these 40 
things?'' ``Yes, I did,'' and that is the problem that I am 
having.
    I would rather for my child to learn 25 of those things 
adequately, proficiently, and know it backwards and forward, 
ready to move on to the next grade level, than to know that 40 
items have been covered simply so that she can do better on 
this test. That is the problem.
    Senator Brownback. I wish the school officials had stayed 
here to hear you testify.
    Mr. Uqdah. Now it is a feel-good process. I understand 
that. I know why the room cleared out.
    Senator Brownback. Well, it may be for you, but I wish that 
they had been here to hear it, and I hope there are some people 
here from the schools that can hear that testimony that you are 
putting forward because I think a lot of it makes a lot of 
sense that you are putting forward. Thank you for coming in.
    Mr. Uqdah. Thank you for having me, sir.
    Senator Brownback. You give us your views from somebody 
that is a parent in the system, and I think as you can detect 
from where we are at today, we are trying to get the system 
improving in a quick order and trying to get it better for your 
kids before they graduate through it in a system that in many 
respects is far more harmful to them than it is helpful.
    Mr. Uqdah. Yes, sir.
    Senator Brownback. We are trying to change that.
    Mr. Uqdah. I hope so.
    Senator Brownback. Thank you very much for joining us. 
Thank you all for joining us.
    The hearing is adjourned.
    [Whereupon, at 3:01 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


[GRAPHIC] [TIFF OMITTED] TH537.001

[GRAPHIC] [TIFF OMITTED] TH537.002

[GRAPHIC] [TIFF OMITTED] TH537.003

[GRAPHIC] [TIFF OMITTED] TH537.004

[GRAPHIC] [TIFF OMITTED] TH537.005

[GRAPHIC] [TIFF OMITTED] TH537.006

[GRAPHIC] [TIFF OMITTED] TH537.007

[GRAPHIC] [TIFF OMITTED] TH537.008

[GRAPHIC] [TIFF OMITTED] TH537.009

[GRAPHIC] [TIFF OMITTED] TH537.010

[GRAPHIC] [TIFF OMITTED] TH537.011

[GRAPHIC] [TIFF OMITTED] TH537.012

[GRAPHIC] [TIFF OMITTED] TH537.013

[GRAPHIC] [TIFF OMITTED] TH537.014

[GRAPHIC] [TIFF OMITTED] TH537.015

[GRAPHIC] [TIFF OMITTED] TH537.016

[GRAPHIC] [TIFF OMITTED] TH537.017

[GRAPHIC] [TIFF OMITTED] TH537.018

[GRAPHIC] [TIFF OMITTED] TH537.019

[GRAPHIC] [TIFF OMITTED] TH537.020

[GRAPHIC] [TIFF OMITTED] TH537.021

[GRAPHIC] [TIFF OMITTED] TH537.022

[GRAPHIC] [TIFF OMITTED] TH537.023

[GRAPHIC] [TIFF OMITTED] TH537.024

[GRAPHIC] [TIFF OMITTED] TH537.025

[GRAPHIC] [TIFF OMITTED] TH537.026

[GRAPHIC] [TIFF OMITTED] TH537.027

[GRAPHIC] [TIFF OMITTED] TH537.028

[GRAPHIC] [TIFF OMITTED] TH537.029

[GRAPHIC] [TIFF OMITTED] TH537.030

[GRAPHIC] [TIFF OMITTED] TH537.031

[GRAPHIC] [TIFF OMITTED] TH537.032

[GRAPHIC] [TIFF OMITTED] TH537.033

[GRAPHIC] [TIFF OMITTED] TH537.034

[GRAPHIC] [TIFF OMITTED] TH537.035

[GRAPHIC] [TIFF OMITTED] TH537.036

[GRAPHIC] [TIFF OMITTED] TH537.037

[GRAPHIC] [TIFF OMITTED] TH537.038

[GRAPHIC] [TIFF OMITTED] TH537.039

[GRAPHIC] [TIFF OMITTED] TH537.040

[GRAPHIC] [TIFF OMITTED] TH537.041

[GRAPHIC] [TIFF OMITTED] TH537.042

[GRAPHIC] [TIFF OMITTED] TH537.043

[GRAPHIC] [TIFF OMITTED] TH537.044

[GRAPHIC] [TIFF OMITTED] TH537.045

[GRAPHIC] [TIFF OMITTED] TH537.046

[GRAPHIC] [TIFF OMITTED] TH537.047

[GRAPHIC] [TIFF OMITTED] TH537.048

[GRAPHIC] [TIFF OMITTED] TH537.049

[GRAPHIC] [TIFF OMITTED] TH537.050

[GRAPHIC] [TIFF OMITTED] TH537.051

[GRAPHIC] [TIFF OMITTED] TH537.052

[GRAPHIC] [TIFF OMITTED] TH537.053

[GRAPHIC] [TIFF OMITTED] TH537.054

[GRAPHIC] [TIFF OMITTED] TH537.055

[GRAPHIC] [TIFF OMITTED] TH537.056

[GRAPHIC] [TIFF OMITTED] TH537.057

[GRAPHIC] [TIFF OMITTED] TH537.058

[GRAPHIC] [TIFF OMITTED] TH537.059

[GRAPHIC] [TIFF OMITTED] TH537.060

[GRAPHIC] [TIFF OMITTED] TH537.061

[GRAPHIC] [TIFF OMITTED] TH537.062

[GRAPHIC] [TIFF OMITTED] TH537.063

[GRAPHIC] [TIFF OMITTED] TH537.064

[GRAPHIC] [TIFF OMITTED] TH537.065

[GRAPHIC] [TIFF OMITTED] TH537.066

[GRAPHIC] [TIFF OMITTED] TH537.067

[GRAPHIC] [TIFF OMITTED] TH537.068

[GRAPHIC] [TIFF OMITTED] TH537.069

[GRAPHIC] [TIFF OMITTED] TH537.070

[GRAPHIC] [TIFF OMITTED] TH537.071

[GRAPHIC] [TIFF OMITTED] TH537.072

[GRAPHIC] [TIFF OMITTED] TH537.073

[GRAPHIC] [TIFF OMITTED] TH537.074

[GRAPHIC] [TIFF OMITTED] TH537.075

[GRAPHIC] [TIFF OMITTED] TH537.076

[GRAPHIC] [TIFF OMITTED] TH537.077

[GRAPHIC] [TIFF OMITTED] TH537.078

[GRAPHIC] [TIFF OMITTED] TH537.079

[GRAPHIC] [TIFF OMITTED] TH537.080

[GRAPHIC] [TIFF OMITTED] TH537.081

[GRAPHIC] [TIFF OMITTED] TH537.082

[GRAPHIC] [TIFF OMITTED] TH537.083

[GRAPHIC] [TIFF OMITTED] TH537.084

[GRAPHIC] [TIFF OMITTED] TH537.085

[GRAPHIC] [TIFF OMITTED] TH537.086

[GRAPHIC] [TIFF OMITTED] TH537.087

[GRAPHIC] [TIFF OMITTED] TH537.088

[GRAPHIC] [TIFF OMITTED] TH537.089

[GRAPHIC] [TIFF OMITTED] TH537.090

[GRAPHIC] [TIFF OMITTED] TH537.091

[GRAPHIC] [TIFF OMITTED] TH537.092

[GRAPHIC] [TIFF OMITTED] TH537.093

[GRAPHIC] [TIFF OMITTED] TH537.094

[GRAPHIC] [TIFF OMITTED] TH537.095

[GRAPHIC] [TIFF OMITTED] TH537.096

[GRAPHIC] [TIFF OMITTED] TH537.097

[GRAPHIC] [TIFF OMITTED] TH537.098

[GRAPHIC] [TIFF OMITTED] TH537.099

[GRAPHIC] [TIFF OMITTED] TH537.100

                                  <all>
</pre></body></html>
